OIG Audit Report GR-50-06-002

Office of Juvenile Justice and Delinquency Prevention Safe Start Demonstration Project 
Administered by the Chicago Department of Public Health, Chicago, Illinois

Audit Report GR-50-06-002


February 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Safe Start Demonstration Project Cooperative Agreement awarded by the U.S. Department of Justice, Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Chicago Department of Public Health (CDPH). The purpose of the cooperative agreement (hereinafter referred to as the grant) was to assist the CDPH in its effort to design and implement a program to prevent and reduce the impact of family and community violence on young children, primarily from birth to 6 years of age.  As of December 31, 2004, OJJDP had awarded a total of $3,182,500 to CDPH.  At that time, the grantees records showed a total of $2,298,618 in grant-related costs, of which $2,293,868 had been reimbursed by OJJDP.

Our audit included a review of CDPHs compliance with five essential grant conditions:  monitoring of sub-grantees, grant drawdowns, budget management and control, grant expenditures, and grant reporting.  We tested the grant accounting records to determine if reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Specifically, we tested direct costs such as consultant and contractual fees, travel, equipment, and supplies totaling $464,632, salary costs of $10,604, fringe benefit costs of $66,884, and indirect costs of $377,714.  In total, we reviewed $919,834, or about 40 percent of the $2,298,618 expended as of December 31, 2004.

Our audit revealed unallowable direct and indirect costs charged to the grant, drawdown receipts in excess of reported expenditures, as well as errors and delays in grant reporting.  As a result, we questioned $132,202 in grant funds received.1
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.  We discussed the results of our audit with officials from the CDPH and Office of the Comptrollers/Special Accounting Division for the city of Chicago and have included their comments in the report, as applicable.  In addition, we received written responses to our draft report from CDPH and OJJDP, which were appended to this report.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.